HHS/OIG-Audit-"Audit Of The Medicaid Drug Rebate Program In Washington State,"( A-10-03-00007)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit Of The Medicaid Drug Rebate Program In Washington State," (A-10-03-00007)
July 31, 2003
Complete
Text of Report is available in PDF format (3.74 mb). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the Washington Department
of Social and Health Services (the State Agency) had established adequate accountability
and internal controls over the Medicaid drug rebate program.  We found
that the State Agency had not established formal policies and procedures over
the Medicaid drug rebate program as required by Federal rules and regulations.  We
also identified internal control and accountability weaknesses in the State
Agencys informal procedures regarding:  (1) segregation of duties,
(2) adjustments and write-offs, (3) subsidiary ledger, (4) interest, and
(5) dispute resolution.  As a result, the State Agency did not adequately
establish policies, procedures, and internal controls to account for drug rebate
program transactions.  In addition, the lack of adequate internal controls
increased the risk for fraud, waste and abuse of drug rebate program funds.  The
State Agency disagreed with our finding regarding segregation of duties but,
generally concurred with our other findings.